<html>
<title> - AVOIDING THE SPECTRUM CRUNCH: GROWING THE WIRELESS ECONOMY THROUGH INNOVATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                     AVOIDING THE SPECTRUM CRUNCH:
                      GROWING THE WIRELESS ECONOMY
                           THROUGH INNOVATION

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 18, 2012

                               __________

                           Serial No. 112-77

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-057PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee
E. SCOTT RIGELL, Virginia
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
JUDY BIGGERT, Illinois               FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              DANIEL LIPINSKI, Illinois
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
RANDY HULTGREN, Illinois             VACANCY
CHIP CRAVAACK, Minnesota             EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas













                            C O N T E N T S

                       Wednesday, April 18, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    14

                               Witnesses:

Dr. James Olthoff, Deputy Director, Physical Measurement 
  Laboratory, National Institute of Standards and Technology
    Oral Statement...............................................    15
    Written Statement............................................    18

Mr. Richard Bennett, Senior Research Fellow, Information 
  Technology and Innovation Foundation
    Oral Statement...............................................    27
    Written Statement............................................    29

Mr. Christopher Guttman-Mccabe, Vice President, Regulatory 
  Affairs, CTIA-The Wireless Association
    Oral Statement...............................................    47
    Written Statement............................................    49

Ms. Mary Brown, Director, Technology and Spectrum Policy, Cisco 
  Systems, Inc.
    Oral Statement...............................................    57
    Written Statement............................................    59

Dr. Rangam Subramanian, Chief Wireless and Technology Strategist, 
  Idaho National Laboratory
    Oral Statement...............................................    70
    Written Statement............................................    73

Discussion.......................................................    80

             Appendix 1: Answers to Post-Hearing Questions

James Olthoff, Deputy Director, Physical Measurement Laboratory, 
  National Institute of Standards and Technology.................    95

Richard Bennett, Senior Research Fellow, Information Technology 
  and Innovation Foundation......................................    98

Christopher Guttman-Mccabe, Vice President, Regulatory Affairs, 
  CTIA-The Wireless Association..................................   103

Mary Brown, Director, Technology and Spectrum Policy, Cisco 
  Systems, Inc...................................................   106

Rangam Subramanian, Chief Wireless and Technology Strategist, 
  Idaho National Laboratory......................................   110

             Appendix 2: Additional Material for the Record

Carriers Warn of Crisis in Mobile Spectrum: Reprint from the New 
  York Times.....................................................   116

 
                     AVOIDING THE SPECTRUM CRUNCH:
            GROWING THE WIRELESS ECONOMY THROUGH INNOVATION

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. The Subcommittee on Technology and 
Innovation will come to order. Good afternoon. Welcome to 
today's hearing entitled, ``Avoiding the Spectrum Crunch: 
Growing the Wireless Economy through Innovation.'' In front of 
you are packets containing the written testimony, biographies, 
and truth in testimony disclosures for today's witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    In today's hearing, we are going to be reviewing efforts to 
ensure the innovative use of spectrum and the continued 
expansion of the wireless economy. This Subcommittee is 
uniquely positioned to address issues facing high-growth 
industries, and today's hearing is a continuation of our series 
focused on advancing U.S. innovation.
    The U.S. wireless industry has been experiencing 
exponential growth. There are entirely new jobs and sectors of 
our economy, like the app market, that we never envisioned a 
few years ago. Our wireless industry is the most competitive 
and innovative in the world, in part because it has been able 
to operate under flexible, market-driven policies unfettered 
from excessive government intervention. These policies 
encourage mobile companies to compete by providing innovative, 
user-friendly services and offering consumers the best possible 
experience. Thanks to a cycle of innovation and competition, 
U.S. consumers win.
    In recent years the number of active spectrum frequency 
authorizations at both the Federal Communications Commission 
and the National Telecommunications and Information 
Administration, has dramatically increased. In fact, at both 
agencies there are twice as many spectrum assignments now as 
there were in 1980.
    As spectrums become more crowded, it is necessary to ensure 
that it is being used as efficiently as possible and that we 
have the policies in place to encourage industry's continued 
investment in growth. Maximizing the yield and availability 
from this essential resource will continue to help create jobs 
and encourage innovation.
    The U.S. wireless economy has experienced tremendous 
growth. The subscriber connections growing from 38.2 million in 
2006, to 322.9 million in 2011. Growth in data traffic has been 
even greater as modern devices such as smartphones and tablets 
are much more data intensive. This massive data growth 
exacerbates the strain on spectrum availability.
    Advances in technology have always kept ahead of the demand 
for spectrum, but now as demand for spectrum is growing more 
rapidly, the technical advances needed may be pushing the 
envelope of practicality, at least in the short term.
    To ensure the future growth of this dynamic sector, it is 
imperative that research and development efforts continue to 
identify more effective ways to utilize spectrum. We also need 
to ensure that government policies are not creating impediments 
and that we are creating an environment where companies will 
continue to invest in new technologies.
    Our hearing today should highlight specific efforts by both 
the Federal Government and industry to address the spectrum 
challenges within our Subcommittee's jurisdiction and to enable 
the continued growth of the wireless economy through 
innovation.
    We thank our witnesses for being here today, and we look 
forward to your testimony.
    [The prepared statement of Mr. Quayle follows:]

         Prepared Statement of Subcommitte Chairman Dan Quayle

    Good afternoon. I would like to welcome everyone to today's 
hearing, which is being held to review efforts to ensure the innovative 
use of spectrum and the continued expansion of the wireless economy. 
This Subcommittee is uniquely positioned to address issues facing high-
growth industries, and today's hearing is a continuation of our series 
focused on advancing U.S. innovation.
    The U.S. wireless industry has been experiencing exponential 
growth. There are entirely new jobs and sectors of our economy, like 
the ``app'' market that we never envisioned a few years ago. Our 
wireless industry is the most competitive and innovative in the world, 
in part because it has been able to operate under flexible, market-
driven policies, unfettered from excessive government intervention. 
These policies encourage mobile companies to compete by providing 
innovative, user-friendly services and offering consumers the best 
possible experience. Thanks to a cycle of innovation and competition, 
U.S. consumers win.
    In recent years the number of active spectrum frequency 
authorizations at both the Federal Communications Commission (FCC), and 
the National Telecommunications and Information Administration (NTIA) 
has dramatically increased. In fact, at both agencies, there are twice 
as many spectrum assignments now as there were in 1980.
    As spectrum has become more crowded, it is necessary to ensure that 
it is being used as efficiently as possible, and that we have the 
policies in place to encourage industry's continued investment and 
growth. Maximizing the yield and availability from this essential 
resource will continue to help create jobs and encourage innovation.
    The U.S. wireless economy has experienced tremendous growth, with 
subscriber connections growing from 38.2 million in 2006 to 322.9 
million in 2011. Growth in data traffic has been even greater as modern 
devices, such as smartphones and tablets, are much more data intensive. 
This massive data growth exacerbates the strain on spectrum 
availability.
    Advances in technology have always kept ahead of the demand for 
spectrum--but, now, as demand for spectrum is growing more rapidly, the 
technical advances needed may be ``pushing the envelope'' of 
practicality, at least in the short term.
    To ensure the future growth of this dynamic sector, it is 
imperative that research and development efforts continue to identify 
more effective ways to utilize spectrum. We also need to ensure that 
government policies are not creating impediments and that we are 
creating an environment where companies will continue to invest in new 
technologies.
    Our hearing today should highlight specific efforts by both the 
Federal Government and industry to address the spectrum challenges 
within our Subcommittee's jurisdiction, and to enable the continued 
growth of the wireless economy through innovation.
    We thank our witnesses for being here today and we look forward to 
your testimony.

    Chairman Quayle. I now recognize the gentlelady from 
Maryland, the Ranking Member, Ms. Edwards, for her opening 
statement.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
calling this hearing on the ways that we can address the 
impending spectrum crunch. I want to thank the witnesses in 
advance for your testimony today.
    The United States has long been a leader in information and 
communications technologies, with the majority of the top firms 
being American companies. However, in a sector that is all 
about the next big innovation, we can't afford to rest on our 
past accomplishments. Wireless broadband is expected to trigger 
the next wave of innovation and holds enormous potential to 
create high-quality jobs and economic growth.
    For example, one estimate shows that providing an 
additional 300 megahertz of spectrum to wireless broadband uses 
will generate 300,000 new jobs and $230 billion in GDP within 
five years. Advances in wireless technologies also hold the 
promise to benefit the public. For example, the use of mobile 
technologies for patient monitoring is expected to vastly 
improve the quality of patient care and reduce health care 
costs by as much as $6 billion by 2014.
    Smartphones, tablets, and other mobile devices are already 
part of our everyday lives. Consumers and businesses have 
learned to expect access to information at anytime from 
anywhere. This demand has resulted in the rapid growth of 
wireless data flowing across our networks. In fact, the amount 
of wireless traffic has increased by more than 100 percent in 
the last year alone, and that demand is expected to rise by a 
factor of 20 by 2015.
    The only way to accommodate this growing demand is to 
increase the amount of spectrum available for wireless 
services. The incentive auctions authorized in the Middle Class 
Tax Relief and Job Creation Act of 2012 will help to free up 
some of this valuable spectrum.
    However, if the United States wants to continue to lead the 
wireless revolution, then we have to make more efficient use of 
our spectrum. Advances in research and development are central 
to the goal of freeing up spectrum for wireless broadband. 
Spectrum is a finite resource, and in order to improve its use, 
we need to develop innovative spectrum-sharing technologies 
that allow multiple users to share the same slice of spectrum 
without interference or degradation of services.
    Imagine a mobile device that has the ability to scan across 
a spectrum, identify frequencies that are currently available 
or not in use, and send its communication without delay. 
Spectrum could be fully and effectively utilized under this 
type of dynamic system, but it is only possible through 
advances in research, development, and testing.
    I look forward to hearing from our witnesses today about 
the Nation's wireless test bed capabilities, our current 
research and development needs, and what the Federal Government 
is or can be doing to accelerate the efficient use of spectrum 
and the development of innovative wireless technologies.
    I am also interested in hearing more about NIST's plans for 
the development of a nationwide interoperable Public Safety 
Broadband Network. I am pleased to see that the role for NIST 
that Ranking Member Johnson and I supported and advocated for 
in the creation of an advanced wireless communication system 
for our first responders in H.R. 3642 was included in the 
Middle Class Tax Relief and Job Creation Act.
    I look forward to working with NIST and to make sure that 
this effort is successful and that our first responders have 
the broadband network they need to keep us safe.
    We need to ensure that the United States remains a leader 
in information technology, and wireless broadband is key to 
making this happen. The United States ranked ninth out of the 
OECD countries in relation to wireless broadband access. We 
need to do all that we can to ensure that the global wireless 
revolution grows from American innovations and benefits 
American companies and the American people.
    Thank you, Mr. Chairman, for calling this hearing, and I 
yield the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

   Prepared Statement of Subcommittee Ranking Member Donna F. Edwards

    Mr. Chairman, thank you for calling this hearing on ways to address 
the impending spectrum crunch. And thank you to the witnesses for being 
here today.
    The U.S. has long been a leader in information and communication 
technologies, with the majority of the top firms being American 
companies. However, in a sector where it is all about the next big 
innovation, we can't afford to rest on our past accomplishments. 
Wireless broadband is expected to trigger the next wave of innovation 
and holds enormous potential to create high-quality jobs and economic 
growth. For example, one estimate shows that providing an additional 
300 megahertz of spectrum to wireless broadband uses will generate 
300,000 new jobs and $230 billion in GDP within five years.
    Advances in wireless technologies also hold the promise to benefit 
the public. For example, the use of mobile technologies for patient 
monitoring is expected to vastly improve the quality of patient care 
and reduce health care costs by as much as $6 billion by 2014.
    Smartphones, tablets, and other mobile devices are already a part 
of our everyday lives. Consumers and businesses have learned to expect 
access to information at anytime from anywhere. This demand has 
resulted in the rapid growth of wireless data flowing across our 
networks. In fact, the amount of ``wireless traffic'' has increased by 
more than 100 percent in the last year alone and that demand is 
expected to rise by a factor of 20 by 2015. The only way to accommodate 
this growing demand is to increase the amount of spectrum available for 
wireless services.
    The incentive auctions authorized in the Middle Class Tax Relief 
and Job Creation Act of 2012 will help to free up some of this valuable 
spectrum. However, if the U.S. wants to continue to lead the ``wireless 
revolution,'' then we have to make more efficient use of our spectrum.
    Advances in research and development are central to the goal of 
freeing up spectrum for wireless broadband. Spectrum is a finite 
resource and, in order to improve its use, we need to develop 
innovative spectrum-sharing technologies that allow multiple users to 
share the same slice of spectrum without interference or degradation of 
services.
    Imagine a mobile device that has the ability to scan across the 
spectrum, identify frequencies that are currently available or not in 
use, and send its communication without delay. Spectrum could be fully 
and effectively utilized under this type of dynamic system, but it is 
only possible through advances in research, development and testing.
    I look forward to hearing from our witnesses today about the 
Nation's wireless testbed capabilities, our current research and 
development needs, and what the Federal Government is, or can be, doing 
to accelerate the efficient use of spectrum and the development of 
innovative wireless technologies.
    I am also interested in hearing more about NIST's plans for the 
development of a nationwide, interoperable public safety broadband 
network. I am pleased to see that the role for NIST that Ranking Member 
Johnson and I supported and advocated for in the creation of an 
advanced wireless communications system for our first responders in 
H.R. 3642 was included in the Middle Class Tax Relief and Job Creation 
Act. I look forward to working with NIST to make sure that this effort 
is successful and that our first responders have the broadband network 
they need to keep us all safe.
    We need to ensure that the U.S. remains a leader in information 
technology, and wireless broadband is the key to making this happen. 
The U.S. is ranked ninth out of the OECD countries in relation to 
wireless broadband access. We need to do all that we can to ensure that 
the global ``wireless revolution'' grows from American innovations and 
benefits American companies.
    Thank you, Mr. Chairman for calling this important hearing. I yield 
back the balance of my time.

    Chairman Quayle. Thank you, Ms. Edwards.
    At this time, I would like to introduce our witnesses, and 
then we will proceed to hear from each of them in order. Our 
first witness is Dr. James Olthoff, Deputy Director of the 
Physical Measurement Laboratory at the National Institute of 
Standards and Technology. Dr. Olthoff has been with NIST for 
over 20 years, and as deputy director he is responsible for the 
oversight of all calibration services at NIST.
    Next we will hear from Mr. Richard Bennett, who is a Senior 
Research Fellow at the Information Technology and Innovation 
Foundation. Mr. Bennett has extensive experience in network 
engineering and is the inventor of four networking patents.
    Our third witness is Mr. Christopher Guttman-McCabe, Vice 
President of Regulatory Affairs at CTIA-The Wireless 
Association. Mr. Guttman-McCabe's experience in the 
telecommunication field comes from work in regulatory mandates, 
licensing, compliance, and general policy matters.
    Our fourth witness is Ms. Mary Brown, Director of 
Technology and Spectrum Policy for Cisco Systems. Ms. Brown 
handles Cisco's policies surrounding IP-based technologies, 
wireless, and networking, and she has expertise in 
telecommunications issues and Internet law and policy.
    Our final witness is Dr. Rangam Subramanian. Did I get that 
close? Chief Wireless and Technology Strategist at Idaho 
National Laboratory. Dr. Subramanian also serves on the 
National Information Technology Research and Development Senior 
Steering Group on wireless spectrum sharing research and 
development.
    Thank you again to all of our witnesses for being here this 
morning. As our witnesses should know, spoken testimony is 
limited to five minutes each. After all witnesses have spoken, 
Members of the Committee will have five minutes each to ask 
questions.
    I now recognize our first witness, Dr. James Olthoff, for 
five minutes.

        STATEMENT OF DR. JAMES OLTHOFF, DEPUTY DIRECTOR,

                PHYSICAL MEASUREMENT LABORATORY,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Olthoff. Thank you. Chairman Quayle, Ranking Member 
Edwards, Members of the Subcommittee. My name is Dr. James 
Olthoff. I am the Deputy Director of the Physical Measurement 
Laboratory at the National Institute of Standards and 
Technology. Thank you for the invitation to testify before you 
today on what has come to be called the ``spectrum crunch,'' 
and what NIST is doing to advance innovation in wireless 
communications.
    Mr. Chairman, the Administration understands the critical 
need to ensure that sufficient spectrum is available for 
wireless services. In 2010, the President directed the 
Department of Commerce, through NTIA and working with the FCC 
and affected federal agencies, to make available for commercial 
wireless use an additional 500 megahertz of federal and non-
federal spectrum at frequencies near current cell phones bands.
    Let me briefly discuss some of the research activities 
underway at NIST related to the spectrum crunch issue.
    NIST recently launched a five-year program to provide 
industry with the new, sufficiently precise measurement methods 
and the channel measurement data it needs to lead 
internationally in the development of innovative millimeter-
wave wireless technologies.
    While the technical challenges to mobile communications at 
millimeter-wave frequencies are great, the benefits of 
utilizing this large bandwidth at millimeter-wave frequencies 
cannot be ignored. This new program will support industry with 
new tools for use in developing mobile millimeter-wave wireless 
systems. NIST innovation and expertise applied to the 
challenges of higher-speed wireless will offer new metrology so 
that U.S. industry can realize effective utilization of the 
entire millimeter-wave region.
    NIST is familiar with the needs of current U.S. 
telecommunications industry through its interactions with the 
Cellular Telecommunication Industry Association Certification 
Programs. Additionally, NIST is leveraging recent funding from 
DARPA, with whom we are developing improved oscilloscope-based 
techniques to characterize millimeter-wave receivers and also 
investigating the use of reverberation chambers for the testing 
of radiated power.
    We are also leveraging our interactions with the IEEE on 
standards for 60 gigahertz systems. This work will accelerate 
the modeling, design, verification, standardization, and 
interoperability of mobile millimeter-wave wireless systems of 
the future, positioning the United States at the forefront of 
the competitive telecommunications industry.
    The ability to measure and also model components, circuits, 
and entire systems at higher frequencies and bandwidths will 
provide tools for more economical wireless system development 
that can take advantage of this new spectrum.
    In addition to more precise high-frequency measurements, 
NIST is also looking at challenges related to radio frequency 
measurements and the spectrum crunch, particularly 
electromagnetic compatibility and interference issues. Work at 
NIST develops and promotes electromagnetic measurements, 
standards, and technology to support a broad range of technical 
needs. NIST programs focus on accurate and reliable 
measurements throughout the radio spectrum, in particular, 
radio and microwave frequencies.
    We carry out these programs in close coordination with our 
colleagues in industry, academia, and other government 
agencies, such as NTIA, the Departments of Defense, Energy, and 
Homeland Security to ensure that we are responsive to their 
most pressing measurement needs. One of our primary goals is to 
extend new measurement tools and theories to higher operating 
frequencies, wider signal bandwidth, and smaller length scales. 
These are required for next-generation applications in 
microelectronics, high-speed communications, computing, and 
data storage.
    The President has recognized the need for further 
investments in this area. In the fiscal year 2013 budget 
request for NIST, the President proposed a $10 million Advanced 
Telecommunications Initiative that would accelerate innovation 
in advanced telecommunications. This request would provide 
funds for NIST modeling and measurement science that would 
address key areas to enable significant innovation and 
communications in both the commercial and public safety 
sectors.
    Finally, the recently-enacted Middle Class Tax Relief and 
Job Creation Act of 2012 contains a provision very similar to 
that envisioned by the President's National Wireless Initiative 
that would provide NIST with up to $300 million to help develop 
cutting-edge technology for public safety users.
    The overriding objective of this anticipated funding is to 
build a broadband system to allow first responders and other 
public safety personnel anywhere in the Nation to send and 
receive data, voice, and other communications to save lives, 
prevent casualties, and avert acts of terror. Such improvements 
depend upon advances in measurement science, modeling 
standards, and testing.
    The technological challenges that stand in the way are 
significant. Public safety considerations impose demanding 
specifications, including mission-critical voice services, 
enhanced security requirements, unique applications, and 
specialized testing needs.
    In conclusion, NIST is leveraging its expertise in 
measurement science and standards in a number of areas to help 
improve the effectiveness of wireless communications in the 
United States. NIST will continue to work with partners across 
the Federal Government, academia, and industry to drive 
technological innovations that will enable U.S. manufacturers 
to maintain their leadership in wireless telecommunications.
    Thank you. I would be happy to answer any questions you may 
have.
    [The prepared statement of Dr. Olthoff follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. Thank you, Dr. Olthoff.
    I now recognize Mr. Richard Bennett to present his 
testimony.

               STATEMENT OF MR. RICHARD BENNETT,

                    SENIOR RESEARCH FELLOW,

        INFORMATION TECHNOLOGY AND INNOVATION FOUNDATION

    Mr. Bennett. Good afternoon, Chairman Quayle, Ranking 
Member Edwards, and Members. I am Richard Bennett, Senior 
Research Fellow at the Information Technology and Innovation 
Foundation and a former network engineer and inventor.
    Spectrum policy is important right now because computing is 
undergoing a dramatic, some would say revolutionary, shift from 
fixed location systems to mobile devices and applications. 
Smartphones outsold PCs last year for the first time, and that 
is a trend that is not going to reverse anytime soon. And last 
week Facebook bought Instagram for $1 billion, a little photo-
sharing service with only 13 employees, and this jaw-dropping 
price, $76 million per employee, was justified in Facebook's 
point of view because Instagram had already acquired 40 million 
users in only 16 months of operation, roughly as many as 
Netflix and Comcast have combined, or will be by the end of 
next week; they are adding a million a day.
    So the mobile revolution marks a new era in computing, and 
it is powered by spectrum primarily, also microelectronics and 
software. Another application category that we haven't heard 
much about yet is, ``Mobile Augmented Reality,'' a category of 
application that actually interchanges video streams from the 
user to the Cloud in both directions to enhance the user's 
experience as he moves around, he or she moved around in the 
world. In this picture here, you are actually seeing images 
projected from contact lenses that embedded electronics. This 
is a technology that actually had been demonstrated, although 
only for a one-pixel display right now, but, you know, more and 
more of that is coming.
    All of these applications require spectrum, the more the 
better, and because they are truly mobile, there are limited 
opportunities to offload their spectrum needs to short distance 
Wi-Fi networks.
    I am a little lost here. Spectrum assignments by regulators 
around the world have produced this fragmented system of small 
assignments for a large number of applications like you see in 
this spectrum chart from NTIA. It reflects what--from the 
modern perspective it is sort of like the government's attempt 
to operate an app store. I mean, this is really what this looks 
like to me, because every one of these tiny little allocations 
is actually for a particular application. You try to think 
about how that would work in the kind of app store at the scale 
that Android and Apple run them today, it is completely--you 
can't even imagine it.
    But there is a technology that is embedded behind this 
allocation system, and that is frequency division multiplexing, 
and you know, we don't use that as--we don't rely on that so 
much anymore. We have packet switching now and networks and 
technologies that go beyond that.
    So one of the tasks of regulators is to put Humpty Dumpty 
back together again, to take this spectrum map and to realign 
it so that we have a smaller number of allocations per larger 
contiguous chunks that we can use for more diverse purposes by 
running packet switching, you know, on top of them.
    There are, of course, a number of technical tools to enable 
us to make this transition and to get better use. As the 
Ranking Member pointed out, dynamic spectrum access is one of 
those tools, authorized shared access is a more, kind of a 
third-way approach as we characterize it between fully dynamic 
or fully unlicensed and fully licensed. It is kind of licensed 
to a limited number of players who can cooperate.
    But the holy grail ultimately that is going to resolve this 
problem in the long run is something that we call simultaneous 
shared access. Examples of that are CMA that is actually built 
into all the smartphones of today, SDMA, which is Space-
Division Multiple Access and then multiuser. These exist in 
nascent form. They are not fully developed in today's networks, 
and we expect to see more research, making those technologies 
more robust.
    Many government applications are critical for first 
responders, as has been pointed out. I am not going to go into 
much detail on that. Our position on the Public Safety Network 
is it actually would be best for everyone if for the most part 
that application were recognized to be an application that 
should run on commercial networks. That position has the 
advantage of being disapproved of by both the commercial 
network operators and public safety. So I feel reasonably 
impartial in, you know, making that.
    But the point is that focusing on technologies we now can 
actually through the lever of government and how investment and 
research is channeled can actually use the development of 
technology as a way to resolve apparently intractable policy 
disputes. The policy dispute behind FirstNet was, you know, who 
gets access to that spectrum during times of crisis because 
both the commercial and the public safety users, you know, want 
it and have, you know, good arguments for it.
    So to more or less conclude, one of the topics that is, I 
think, going to be central and is certainly in the larger 
public debate about this issue, there is already some 
questioning about whether the spectrum crunch is real. Well, it 
is both real and an illusion, and it is simply a matter of the 
timeline. In 20 or 30 years there won't be a spectrum crunch 
because we will be able to use spectrum so efficiently that 
multiple streams of data will actually be able to move over the 
same frequencies at the same time, but we are literally not 
there yet. And the research agenda is going to help us to get 
there.
    [The prepared statement of Mr. Bennett follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. Thank you, Mr. Bennett.
    I now recognize Mr. Guttman-McCabe for five minutes.

          STATEMENT OF MR. CHRISTOPHER GUTTMAN-MCCABE,

              VICE PRESIDENT, REGULATORY AFFAIRS,

                 CTIA-THE WIRELESS ASSOCIATION

    Mr. Guttman-McCabe. Thank you. Good afternoon, Chairman 
Quayle, Ranking Member Edwards, and Members of the 
Subcommittee. Thank you for including me on today's panel. I am 
here on behalf of CTIA-The Wireless Association, which 
represents the wireless carriers, equipment vendors, and 
software developers that are driving America's leadership in 
wireless broadband.
    I am pleased to tell you that the United States leads the 
world in the deployment of fourth-generation wireless 
technologies. While the U.S. is home to less than five percent 
of the world's population, we have almost 90 percent of the 
world's LTE subscribers and over 50 percent of the world's 
WiMAC subscribers. The U.S. wireless ecosystem is setting the 
pace for innovation with ubiquitous high-speed networks, 
cutting-edge devices launched here first, and epicenter of the 
applications world.
    Five years ago, for the most part these capabilities didn't 
exist, yet today we are increasingly using wireless devices, 
applications, and wireless networks to shop, pay bills, read 
the news, stay in touch, reduce energy consumption, manage 
fleets of trucks, control inventory, address health care 
issues, and teach our children. Not surprisingly, mobile data 
service demand is exploding. Wireless data traffic grew 123 
percent from 2010 to 2011, on top of a doubling the year before 
and the year before that. The pace of growth actually is 
accelerating as the last six months of 2011 were 132 percent 
greater than the last six months of 2010.
    To stay ahead of this demand, CTI's members invest more 
than $20 billion annually, including more than $25 billion each 
of the past two years to extend and upgrade the capabilities of 
wireless networks. In these difficult economic times, our 
members actually are increasing their capital investments.
    But even at these impressive levels, network investment 
alone will not allow us to stay ahead of the exploding demand. 
Conservative estimates project U.S. mobile data traffic will 
grow by more than a factor of 10 over the next five years. If 
vehicle traffic in your Congressional district was predicted to 
grow by a factor of 10 over the next five years, you would want 
to know that the transportation authorities had a plan and were 
implementing it. The same should be true of spectrum.
    For this reason, and to maintain the advantages that flow 
from our world-leading position, CTI believes it is imperative 
that our government embrace policies that will make additional 
spectrum available on a predictable, near-term basis. CTI urges 
Congress to ensure that the FCC and NTIA faithfully and 
expeditiously implement the spectrum legislation enacted by 
Congress just this past February.
    While we believe that the incentive auction process will 
bring a substantial amount of spectrum to market, that will 
only be a down payment towards the 500 megahertz that the FCC 
called for in its National Broadband Plan and that the 
President embraced in his memorandum on unleashing the wireless 
broadband revolution.
    In order to progress towards that 500 megahertz target as 
well as to keep pace with the hundreds of megahertz being freed 
for commercial use in a number of European and Asian countries, 
additional spectrum will need to be made available. CTI 
recommends that the 1755 to 1780 megahertz band be reallocated 
and paired with the available 2155 to 2180 megahertz band. 
Making this spectrum available in the short term for commercial 
use will not only benefit consumers, it will also add billions 
to the U.S. Treasury.
    CTI recognizes that reallocation is challenging, but 
spectrum clearing represents a substantially better path than a 
full default to spectrum sharing. While spectrum sharing may 
have a place as a complement to fully cleared spectrum, dynamic 
or opportunistically shared spectrum currently is not suitable 
as a substitute for large blocks of cleared, licensed spectrum.
    It is important to note that carriers and manufacturers are 
aggressively using many tools to try and meet this increasing 
demand, including the deployment of smaller cells and the use 
of Wi-Fi offload. Notwithstanding these efforts, the release of 
additional spectrum into the marketplace remains the single 
most important thing that can be done to ensure the continued 
vibrancy of the wireless ecosystem.
    While spectrum policy obviously is paramount, there 
certainly are other factors that can affect the industry's 
continued success. In particular, CTI urges Congress to be 
mindful that regulatory and tax policies have a substantial 
impact on the ability and incentive for our members to invest 
in new facilities and the development of new technologies.
    In sum, while I believe the wireless future is bright, 
there is a great deal to be done to ensure that we maximize 
that opportunity and continue U.S. leadership in this vital 
industry. CTI looks forward to working with you and your 
colleagues on these important matters. Thank you for the 
opportunity to appear at today's hearing, and I look forward to 
your questions.
    [The prepared statement of Mr. Guttman-McCabe follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. Thank you very much.
    I now recognize Ms. Brown for five minutes.

             STATEMENT OF MS. MARY BROWN, DIRECTOR,

                TECHNOLOGY AND SPECTRUM POLICY,

                      CISCO SYSTEMS, INC.

    Ms. Brown. Good afternoon, Chairman Quayle and Ranking 
Member Edwards and Committee Members. Thank you for the 
opportunity to talk with you about the dynamic changes Cisco is 
seeing in the wireless economy.
    Today's topic is the spectrum crunch. ``Crunch'' is a term 
intended to convey a shortage or scarcity of spectrum where 
demand exceeds supply. More poetically, crunch is the sound of 
your teeth gnashing when the Internet fails to launch from your 
mobile device or you can't send that important email.
    Cisco as a technology vendor sees evidence of the spectrum 
crunch all around us, from our analysis of traffic data and 
consumer usage to the technologies our service provider 
customers are asking us to develop to the activity we observe 
in the spectrum market.
    Where is this crunch coming from? Simply put, from all of 
us. More and more powerful smartphones, tablets, laptops, and 
other mobile devices accessing rich data, such as video, are 
sending more and more information wirelessly to the Internet. 
Cisco's U.S. mobile data forecast projects that the volume of 
data traffic on mobile service provider networks will increase 
16 times from 2011 to 2016. That is just stunning.
    So, confronted with the exponential growth in mobile 
traffic, we believe that action must be taken. Additional 
spectrum must be found. Congress made a solid down payment 
earlier this year when it increased spectrum for broadband by 
authorizing voluntary incentive auctions in H.R. 3630, but more 
action is needed. Otherwise it could limit and constrain the 
innovation, job creation, and the economic growth that we all 
want to see.
    So what is causing mobile data demand to rise so steeply? 
First, consumers' use of mobile data is growing, and there is 
no end in sight. In 2011, four percent of users were generating 
more than one gigabyte of mobile data per month, the equivalent 
of downloading about six TV shows, but by 2016, 74 percent of 
users will be in the gigabyte club.
    Second, the data transmitted with be video in many forms, 
from YouTube, TV shows, video calls. By 2016, over two-thirds 
of mobile traffic in the U.S. will be video.
    Third, many more people will use multiple devices. In 2011, 
eight percent of U.S. subscribers used multiple mobile devices, 
and by 2016, it is 25 percent. In addition, mobile networks 
will also support machine-to-machine connections. So what do I 
mean by machine by machine? I mean, smart meters to conserve 
energy, sensor networks to make our roads and communities 
safer, and home health care monitoring to reduce health care 
costs and improve outcomes. By 2016, there will be 726 million 
mobile connections for just 348 million people in the U.S. That 
illustrates the power and the impact of machine to machine.
    Fourth, mobile devices themselves are changing and driving 
new traffic demands on networks. For example, by 2013, 
smartphones will become the most dominant device type 
responsible for mobile data traffic. From 2011 to 2016, the 
smartphone evolves from an email device to a fully capable 
hand-held computer. In 2016, there will be many more things 
consumers do with their smartphones than we do today.
    Policymakers, I believe, understand these challenges and 
are taking them seriously. In addition to congressional action, 
the National Telecommunications and Information Administration 
has just released its report on the 1755 to 1850 megahertz 
band, evaluating the cost and challenges of relocating federal 
users in that band. Clearing as much of this spectrum as 
possible is important to meet consumer demand for mobile 
broadband and keep the U.S. in the forefront of technology 
leadership.
    The technology sector, for its part, is also innovating 
quickly to try to help our service provider customers meet 
consumer demand and tell additional spectrum can be placed in 
service. New chipset designs, base stations, and antenna 
technology and network management tools are a few of the 
offerings designed to bring more efficiency from available 
spectrum. Carriers are aggressively deploying Wi-Fi and Femto 
cells in an effort to offload mobile traffic to fixed networks 
where possible. AT&T and Verizon Wireless are deploying LTE or 
4G networks, which are more efficient than the prior 3G 
technology, and carriers continue to deploy additional cell 
sites to reuse existing spectrum.
    But even with all these efforts, we cannot expect 
technology alone to solve the spectrum crunch. So what are the 
next steps? I encourage Congress to investigate specific 
spectrum bands that can be repurposed for mobile broadband and 
to realize that additional legislative action will be 
necessary.
    We look forward to working with you, the Administration, 
and the commercial sector to identify spectrum opportunities, 
including in bands now used by federal agencies. Thank you, 
again, for the opportunity to appear today, and I look forward 
to your questions.
    [The prepared statement of Ms. Brown follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. Thank you very much.
    I now recognize Dr. Subramanian for five minutes.

              STATEMENT OF DR. RANGAM SUBRAMANIAN,

           CHIEF WIRELESS AND TECHNOLOGY STRATEGIST,

                   IDAHO NATIONAL LABORATORY

    Dr. Subramanian. Chairman Quayle, Ranking Member Edwards--
--
    Chairman Quayle. Is your mic on?
    Dr. Subramanian. Sorry. Let us try again. Chairman Quayle, 
Ranking Member Edwards, and Members of the Subcommittee, I want 
to thank you for the opportunity to testify before the House 
Science, Space, and Technology Subcommittee on Technology and 
Innovation.
    I realize the importance of this topic, ``Avoiding the 
Spectrum Crunch: Growing the Wireless Economy through 
Innovation.'' I understand there is so much at stake for the 
future of the national economy and national security of this 
great Nation based on how we can handle this spectrum crunch 
today.
    My name is Dr. Rangam Subramanian. I am the Chief Wireless 
Strategist at the Idaho National Laboratory.
    In the interest of time I will discuss the key points in my 
written testimony.
    As everyone said here, wireless spectrum is a limited 
natural resource just like gasoline. There is exceptionally 
high demand on this low supply, and there is little unallocated 
spectrum available for exclusive allocations.
    However, wireless communication is a critical common 
technology track for all the key economic sectors in the 
future. It influences national security, emergency and first 
responder communications, smart grid energy infrastructure, 
electric vehicles and transportation systems, advanced 
manufacturing systems, medical devices, and so on.
    So the demand for additional spectrum is not just 
restricted to the United States. Globally the European Union, 
Singapore, and China are all experiencing same issues, but they 
are also aggressively seeking innovative solutions and have 
established research testbeds that can be used by many people 
and innovations and patenting is rapidly growing there, which 
means is the United States behind in initiating this effort in 
a larger way. Perhaps is this an opportunistic moment for 
gaining global spectrum leadership and impacting the global 
economy?
    Now, there are three key challenges to this solving the 
spectrum crisis and gaining global leadership in this country. 
Number one, there is a need for a national approach. It is 
important for the different national spectrum stakeholders to 
appreciate the crunch is for real and sharing primarily or 
repurposing in specific cases, especially with an emphasis on 
securing national security.
    It is extremely important, both on the government side and 
on the industry side, and everyone has to work with the 
national agencies to identify spectrum bands for initiating 
research and experimentation in support of repurposing or 
sharing. Collaboration is needed to build trustable, secure 
spectrum sharing technologies--including technologies for high-
frequency operations.
    The government has initiated some important efforts. The 
NTIA and FCC have been trying to work, identify suitable banks 
for spectrum repurposing or sharing and are also coordinating 
with several agencies. The recent Middle Class Tax Relief and 
Job Creation Act of 2012, H.R. 3630, has also identified 
specific bands for sharing and repurposing.
    There are critical national efforts. For example, by the 
National Wireless Spectrum R&D Senior Group facilitating 
collaboration across the government agencies to develop an 
inventory of the research initiatives in the Nation, as well as 
the testing facilities. However, there is a long way to go in 
terms of realizing all the spectrum needed for the industry.
    Challenge two, a strategy for accelerated spectrum-sharing 
technology development. Technology development is pretty much 
in infancy stage right now. There are research reports going 
around, but that is not in a deployable form. Stakeholders both 
from the government side and the industry need trust and 
security in spectrum sharing. Secure technologies, 
standardization, experimentation, and business models are 
extremely critical if sharing is to become successful.
    The wireless carriers, equipment manufacturers, devices, 
and application vendors are not showing very keen interest in 
developing sharing technologies because it is not showing 
immediate return on investment.
    Now, entrepreneurs have--the DOD labs have a limited 
portfolio of research other national laboratories have a lack 
of funding,. The academic institutions have a lot of research 
going on but more on a theoretical basis. They do not have the 
necessary funding; for example, the NSF EARS program is lacking 
funding, and they do not have realistic national testbeds where 
they can go and really test it.
    So this is a widespread problem across different research 
segments in developing the technologies right now.
    Also, research on wireless cybersecurity is extremely 
critical. We have done this mistake with wireless security, and 
we cannot afford to do this going forward.
    Now, secondly, standardization of the spectrum-sharing 
technology is in its infancy. There are limited efforts going 
on, one with the lack of technology, second with the 
understanding of the technology that experimentation and data 
sets are really important before you can standardize. So--that 
is a major problem. There are efforts by the International 
Telecommunications Union as well as by the Institute of 
Electrical and Electronics Engineers, IEEE. In fact, I was at a 
standards meeting yesterday talking on this topic. So we need 
this standardization effort to keep going on. It is extremely 
critical.
    And one of the major impediments to spectrum-sharing 
technology innovation is the identification and creation of 
realistic outdoor testbeds where experimentation can be done. 
This is very clearly stated by the industry and academia during 
the second national workshop conducted by the Wireless Spectrum 
R&D Senior Group in January 2012, which I also happen to co-
chair.
    There are multiple Department of Defense wireless testing 
ranges that are primarily focused on operational testing and 
classification requirements. There are also smaller, non-DOD 
ranges, which are limited in their ability to enable real-world 
experimentation. And there are others in academia that are 
basically performing experimentation in unlicensed spectral 
bands using Wi-Fi, Bluetooth, and Zigby, which is not real 
life. We are talking about so many different bands and so many 
different kinds of applications which need to share the 
spectrum.
    Now, since I was specifically asked by the Subcommittee to 
provide some details on the Idaho National Lab, I would like to 
provide a quick brief. Idaho National Lab has an 890-mile 
wireless range facility for supporting this national effort. In 
April 2011, after visiting the INL wireless experimentation 
facility, the National Wireless Spectrum R&D Senior Steering 
Group commented that, ``The Idaho National Laboratory 
represents a unique opportunity for unfettered development and 
testing of advanced spectrum-using technologies in that 
Nation.''
    Chairman Quayle. Doctor, if you could wrap it up in 30 
seconds, that would be great. Thank you.
    Dr. Subramanian. I will. Thank you.
    Chairman Quayle. Thank you.
    Dr. Subramanian. I particularly note the existence of the 
wireless range of--and a strong research team working on 
related research, executing our nationally important 
experimentation. INL is making research investments on 
spectrum-related research, how a comprehensive national plan 
will help laboratories like INL.
    Now, the third challenge, funding and collaboration 
support. The Nation is faced with the spectrum crunch, yet 
there is currently insufficient funding to accelerate 
development as well as experimentation. Without technologies to 
validate spectrum sharing trust and security, it is not 
possible to build the required government-industry support for 
collaboration.
    The recently enacted H.R. 3630 bill has recommended 
specific spectral bands, but it also needs to be augmented with 
sufficient funding or proper funding to conduct research and 
experimentation.
    In summary, the responsiveness of the Nation to the 
spectrum crunch challenge will have a significant bearing on 
economy growth and national security. The government has taken 
some important steps, but there is a long way to go in terms of 
a comprehensive national approach to spectrum sharing, 
accelerated technology development, and testing.
    Thank you for the opportunity.
    [The prepared statement of Mr. Subramanian follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Quayle. Thank you very much, and I want to thank 
all of our witnesses for their testimony.
    Reminding Members that Committee rules limit questioning to 
five minutes.
    The Chair will at this point open the round of questioning, 
and I recognize myself for five minutes.
    Mr. Guttman-McCabe, in your testimony, you discuss how 
regulatory policies have a substantial impact on the ability 
for CTIA members to invest in new facilities and development of 
new technologies. Can you give us a sense of how these policies 
affect business decisions in the wireless industry, and also if 
you could, could you share specific examples of regulatory 
policies that could be particularly harmful to your industry's 
research and development?
    Mr. Guttman-McCabe. Certainly, and thank you, Mr. Chairman.
    You know, the way we look at regulatory reform and 
regulatory issues is to sort of take a step back and take a 
25,000-foot approach and say, you know, regulatory bodies 
should apply the physician's motto of first do no harm. There 
has been a lot of focus in the last couple of years about 
removing outdated or no-longer-applied regulations, and while 
that is beneficial, if you overlay then, you know, a half dozen 
new regulations and you take away regulations that weren't 
being in any way implemented or enforced, they are still is a 
net negative. And, you know, we represent carriers large and 
small, and when you look at, particularly from some of our 
smaller carriers' perspectives, when they have a dollar from a 
cap X budget, and it has to go towards implementing an FCC 
regulation or on the other hand it can go to moving towards LTE 
or upgrading their networks, you know, they have a finite 
budget. I mean, all of our members have finite budgets.
    So when we look at regulations, we look at the cumulative 
impact of all of them, and there was an interesting memorandum 
that just came out from Cass Sunstein that actually said 
exactly that, that said you can't, while a regulation on its 
face may look logical, when you look at the cumulative impact 
of all of the regulations, that new regulation may, in and of 
itself, may not be logical.
    And that is part of what we hope sort of Congress 
provides--a little oversight to the regulatory bodies is--is it 
is not just each individual regulation that at times may seem 
logical. It is the cumulative impact when you have finite 
capital resources. I think that is key.
    And then from our perspective another one is just providing 
the environment for research and development investments, 
extending the R&D tax credit. It is a constant fight each year 
to try to extend it. We used to be number one in the world. We 
are 27th now.
    Chairman Quayle. Okay.
    Mr. Guttman-McCabe. So that is an area where there could be 
great help.
    Chairman Quayle. Okay. Thank you very much, and Ms. Brown, 
you state that without the market opportunity presented by 
additional radio spectrum for broadband, our country's 
technological leadership is going to really stagnate, and we 
could have huge economic and social benefits not fully 
realized.
    How are the other regions dealing with this? How is the EEU 
and the Asia Pacific RIM, making spectrum available?
    Ms. Brown. Well, they had, in Europe, for example, they had 
the advantage of not having allocated spectrum, large swap of 
spectrum at 2.5 and have recently opened that more than 100 
megahertz of spectrum, which given the timing by which they 
have released it is going to become immediately available for 
advanced mobile broadband technologies.
    And similarly, there are similar sorts of actions in Asia 
Pact. Now, the reason I made that statement in my testimony is 
that because we have continually had radio spectrum in our 
pipeline for advancing technologies here in the U.S. This has 
become the locust. This country has become the place where 
these technologies are developed. Even global companies that 
are headquartered in Europe or elsewhere, they come here to do 
the development because this has been the center of mobile 
broadband and mobile technologies.
    If we no longer have those market opportunities, our 
carriers are not able to advance, there are now plenty of 
spectrum opportunities in Europe and Asia Pact, and these 
development centers could migrate over time outside of the 
U.S., which would be a shame.
    Chairman Quayle. Thank you, and with Cisco's Virtual 
Networking Index, the projects that the volume--projects that 
the volume of traffic on mobile service provider networks will 
increase 16 times----
    Ms. Brown. Uh-huh.
    Chairman Quayle [continuing]. From now until 2016. How have 
Cisco and other technology companies increased deficiencies, 
improved technologies, and addressed rising demand through 
innovative research and development?
    Ms. Brown. So let me speak to Cisco and the tech sector 
generally. Through every layer and every corner of service 
provider networks, there are new technologies being deployed to 
try to address this right now. So from Cisco's perspective, 
network management technologies that enable to carriers to 
better balance their traffic loads so that they can spread the 
traffic out among cell sites. Cisco has also been at the 
forefront of Wi-Fi and Femto cell offloading that many of the 
carriers are aggressively moving to try to get the traffic off 
the mobile spectrum and onto unlicensed spectrum.
    But you can go on and on. The chips that manufacturers are 
producing, more efficient chip sets, the base station and 
antenna people are producing ever-more-efficient equipment. LTE 
itself is an example of a much more efficient technology than 
the 3G technologies that preceded it.
    So it is going on at every level in every tech company that 
services service providers, mobile service providers.
    Chairman Quayle. So we are making great progress, but as 
Mr. Bennett stated in his testimony, we are just not there yet 
in terms of being able to use overlapping spectrum for 
different communications.
    Ms. Brown. Right.
    Chairman Quayle. Okay. Well, thank you very much, and 
before I recognize Ms. Edwards, I am in the middle of two other 
mark-ups just like many other people, so I apologize if I have 
to leave, and I want to thank you all for your testimony.
    And now I recognize Ms. Edwards for five minutes.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses.
    I just have one question because you all seem to indicate 
that we need to repurpose or reallocate spectrum for commercial 
use, and just as I was sitting here, I am a big Turner Classic 
Movie fan, and one of my favorites is ``Pillow Talk'' with 
Doris Day, the party line, Rock Hudson on the other end. And I 
can recall probably showing my age, recall us having a party 
line when I was growing up, and clearly we don't want to live 
in an age where if we are forced to share, then it means that 
it disrupts our ability to use and have broadband access when 
we want it and when we need it. We have become too accustomed 
to that kind of rapid access.
    But what I am curious about and Dr. Subramanian notes in 
your testimony that repurposing is only going to be a short-
term solution. It is not a long-term solution, and the risk of 
having to share a spectrum in the long run still remains.
    And so my question is what is it that both the government 
and industry can do to ramp up technology and innovation in the 
sector so that, you know, in the meantime while we are 
reallocating and repurposing, which we have to do, that in the 
long run we are not going to find ourselves not just in a 
crunch anymore because we will have reallocated ad nauseam, but 
without the ability to meet the needs that all of us will have 
to expect rapid, up-to-the-moment information.
    And so I wonder if you have some comments about that, about 
what the Federal Government can do and what the private sector 
needs to do to step up research and development around sharing 
technologies.
    Maybe start with Dr. Bennett. Mr. Bennett.
    Mr. Bennett. Just Mr. Bennett.
    Ms. Edwards. Okay. Well, we will make you a doctor later 
on, but we will start with Mr. Bennett.
    Mr. Bennett. Honorary degree. One of the first things that 
the government can do is actually focus on repurposing or 
redesigning government applications where government is 
actually an operator of networks as often in the case with the 
defense networks and several others. Those applications can be 
reconfigured to use commercial networks and also commercial 
networking technologies. In the Public Safety Network, we go 
part of the way there that we embrace a commercial technology, 
but we still retain the government's role as the network 
operator.
    One of the things that is important to realize about this 
whole repurposing issue is that there is really no downside. 
Say we could all be completely wrong and there is no spectrum 
crunch, but there is no downside to acting on the assumption 
that it is real and updating the applications and replacing the 
equipment that was installed 20 years ago to run these 
applications a certain way with more modern equipment that 
takes more--better advantage of the technologies that we have 
right now.
    Ms. Edwards. Thank you, and perhaps we can hear from Dr. 
Subramanian.
    Dr. Subramanian. First of all, I guess, in my personal 
opinion, we have started a little bit late on this whole 
spectrum crunch issue. Now, what this has led to is that there 
is hardly any spectrum to allocate now. So this means we need 
to devise methods for either repurposing or sharing before it 
can be a lucrative industry. And there are efforts going on as 
we talked about.
    Now, on the industry front, carriers, the leading carriers 
as you all might know, they are already moving to unlimited 
data plans. If you are getting a new plan now, you've got to 
pay $50 to get five gigabytes a month, and potentially because 
of this crunch. This has been very clearly stated by one of the 
CEOs of the carriers, that they don't have spectrum and are 
going to keep on increasing the cost of this. So the cost of 
the spectrum usage is going to increase. That is one thing.
    The other thing they are also trying to do is using Wi-Fi 
or using Femto cell-like technologies to offload the traffic to 
landlines. So that is--it can go only so much, so far.
    Now, if you look at the OEMs or the industry that is 
supporting the carriers, they are trying to build new advance 
or the next generation technology to optimize the efficiency of 
spectrum usage. So these things have to go on in parallel, and 
in my guestimate it takes at least about, you know, four to 
five years before technologies can be formed, tested, and 
deployed. So somehow the next four to five years the industry 
has to keep on making the small increments.
    Ms. Edwards. So could we hear from, maybe, Ms. Brown? I 
mean, what is it that we could do that would, you know, sort of 
spur Cisco and, you know, others in the industry to ramp up 
their R&D capacity?
    Ms. Brown. Well, I think from the perspective of a 
manufacturer, there are already very strong profit motives in 
the private sector to engage in R&D in this area. Our customers 
are basically demanding that we create technologies that are 
going to enable them to be more efficient from a spectrum 
capacity. So I am not sure, from a private sector perspective, 
there is a stronger motive than that.
    But there are things and there are, I think, things that 
the Federal Government can do, and there is a role for 
government here. So things like basic research of the type we 
heard from from NIST on cognitive radio, improving, as Richard 
Bennett said, improving federal radio systems, which were 
designed, many of them decades ago in a siloed environment 
where there was no thought given to being good neighbors from a 
spectrum perspective. And then as Dr. Subramanian said, test 
beds are important. One of the things we have learned from the 
very limited experience so far we have had in Wi-Fi sharing 
with federal radar systems, it is very important to develop a 
level of trust if you are going to have commercial and federal 
sharing spectrum. Both sides need to know that the investments 
they make and the services that they are offering are going to 
continue to happen when sharing starts. And it is things like 
test beds that enable you to build that level of trust.
    So funding those sorts of activities as well is important.
    Ms. Edwards. Thank you. My time has run out.
    Mr. Chairman.
    Chairman Hall. [Presiding] The Chair recognizes Mrs. 
Biggert, the gentlelady from Illinois, for five years--five 
minutes.
    Mrs. Biggert. I don't know if I have got five years of 
questions. Thank you.
    Chairman Hall. I made a mistake yesterday and cut a 
gentleman short and now I am overly generous.
    Mrs. Biggert. Thank you, Mr. Chairman.
    You know, I have got an iPad, I mean, whatever you call it, 
and a smartphone and an iPad and a Kindle. What is bothering me 
is particularly with this one, the Blackberry, I see everybody 
on the House Floor with them standing in the back, and I always 
ask them if they are talking to each other because nobody is 
talking anymore. I am really worried that the art of 
conversation is going to be gone. But we will see what happens 
with that.
    And Dr. Subramanian, could you describe your work on NITRD? 
I am particularly interested in the Steering Group's role in 
coordinating and informing ongoing spectrum R&D activities 
across the government as well as identification of the 
shortcomings in the government's R&D portfolio with respect to 
the technologies that allow more efficient use of the spectrum.
    Dr. Subramanian. Yes. Thank you. Essentially, I think the 
first and foremost is to understand where is the national R&D 
money being spent, especially by the government agencies. And 
then to understand are there any national testing facilities 
that really exist that both the government and the industry can 
really collaborate and work together.
    So on the first thing, we went to all the agencies--there 
are 16 agencies that are a part of the NITRD group--we went to 
all of them and said, hey, you know, where is your money going, 
including DARPA, NSF, DOD, DHS, all those, and where is your 
R&D portfolio going on, and they came up with a list of 
portfolio and a list of research that is happening. We did the 
same thing for testbeds, what are the testbed values, what are 
the features.
    Then we coordinated two national working group meetings, 
one in Boulder last year in June and then one in Berkeley in 
January 2012. The first meeting we discussed the R&D areas that 
the government has been working on. We asked Industry, what are 
you working on? Is this all useful? And are there gaps that you 
want to do?
    And then apparently it so happens that, you know, as I kind 
of alluded to in the testimony, that the industry is very 
focused on the near-term return on investments, especially on 
the spectrum sharing perspective.
    So there are efforts going on on the government side, but 
there is a significant amount of research that needs to happen 
on sensing, policy, data processing, spectrum databases, and 
stuff--there is an extensive amount of research that needs to 
happen. And as Ms. Brown also mentioned, everyone said we 
needed a large-scale experimentation facility.
    Mrs. Biggert. Okay. Thank you. Then what--and this is 
whoever wants to answer this question or all, what is the best 
strategy to ensure U.S. leadership in spectrum technology 
development and innovation?
    Mr. Bennett.
    Mr. Bennett. Yeah. I think the best way we can win that 
race is to beat the other countries in investing and research, 
and basic research is one of--is the thing that really 
ultimately drives all of this, and the United States used to 
have a wonderful position in basic research because we had Bell 
Labs, an institution that wasn't, had no parallel anywhere else 
in the world, and that is--Bell Labs, I mean, still exists in 
name, but it is not what it was.
    And that gap in basic research funding really can only be 
filled by the government. The commercial sector is doing a 
great job on the applied research side, although they could use 
some help there, too, but fundamentally it is from the basic 
research we got to the standards committees, and from the 
standards committees we go to the commercial products. And so 
it really all begins with the research.
    Mrs. Biggert. Thank you. Mr. Guttman-McCabe.
    Mr. Guttman-McCabe. Congressman, if I may, I would also 
add, you know, I had the privilege of going to Dallas last week 
and met with six of our members, all who have R&D facilities in 
the Dallas area, and if we went back and looked, our members 
have about 87 labs in the United States doing R&D. So Ms. Brown 
talked about it. I mean, there is a lot of incentive on the 
private sector side to do this, but we do need to make sure 
that we make bringing spectrum to market a priority. If we do 
that, this will continue to be the hub for those R&D 
facilities. Almost every one of those companies is a multi-
national company that has chosen to locate their R&D facilities 
here to bring those jobs, to bring those revenues here.
    But it is sort of chicken and egg. Part of it is because we 
have led the spectrum position for quite some time, and we have 
managed to get the networks out there first, but there does 
need to be--we understand that sharing is a significant part of 
the equation, but there are other very developed countries like 
Germany and the UK and Italy and France, Japan that have 
standing armies and similar sort of environments that we do 
that are bringing hundreds and hundreds of megahertz of 
spectrum to market.
    So our argument is we can't fall behind them or we will 
lose a lot, including the R&D test bed facilities that we have.
    Mrs. Biggert. Thank you. Dr. Subramanian.
    Dr. Subramanian. There are two things I want to point out. 
If you look at the first generation and second generation of 
the wireless technology patents, the United States had more 
than 80 percent, which means we were really controlling the 
global supply chain.
    But when you come to LTE, the United States has less than 
40 percent of the patents and then there are an increasing 
number of patents in China as well as in Europe. So that is 
caution number one. There is a lot to be done.
    The second thing is we asked the same question to the 
industry in Berkeley, hey, you know, what do you want to do, 
how can we help. The first thing they said was, identify the 
spectrum bands. This needs to happen. Second thing is bring 
those government agencies who are deploying the applications 
currently to the table so that we can collaborate and test in a 
common place.
    So this needs to happen immediately, and I think the H.R. 
bill that has recently been released will definitely help in 
the right direction to go there.
    Mrs. Biggert. Okay. Thank you, and I know this Committee 
always stresses basic science and research and continues to do 
that. I wish all of our Members would get the joke. Thank you.
    Yield back.
    Chairman Hall. The gentlelady yields back.
    I recognize Ms. Bonamici from the State of Oregon for five 
minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you, all of you, for your fascinating and important testimony, 
and I think I want to perhaps emphasize the importance.
    I know, Ms. Brown, in your testimony you mention that Cisco 
did not even consider tablets to be a device category a couple 
of years ago, and I think that is pretty staggering now as we 
look around us, and it just shows how dynamic and ever changing 
the sector is.
    So, and I understand that the future, even the near future, 
is pretty hard to predict, but a couple of you have mentioned 
in your testimony some emerging technologies that are on the 
horizon, and I know, Ms. Brown, you mentioned the machine 
communications. I had the pleasure of seeing a demonstration 
and hearing a discussion out at a fairly large Intel facility 
in my district, and some of the work that they are doing with 
medical technology is very, very promising, but really raises, 
I think, the issue of the need for more spectrum.
    So can you talk a little bit more about, I know you 
mentioned that one example, other technologies and what that is 
going to mean for consumer demand just so we can figure out how 
much teeth gnashing there is going to be.
    Ms. Brown. Yeah. So our study that we release every year, 
the Visual Networking Index, is basically our attempt to look 
five years ahead and figure out what is going to happen on 
service provider networks from a traffic standpoint, what types 
of traffic are going to flow, what are the demands, and so on. 
And the purpose of that is so that Cisco can understand what we 
need to build, because it takes time to construct everything, 
and meet that demand three, four, five years out.
    So as we get beyond the five-year time frame it becomes a 
little murky in terms of trying to project what is going to 
happen, but it is very clear from the evidence that we see 
today, which is from existing measurements of traffic of 
carrier networks today from analyst reports and from the kinds 
of things that are sort of on the cusp in the standards 
organizations and what is happening, that we are about to see a 
transformation of the mobile Internet from people to people to 
machine to machine, as well as people to machine and people to 
people.
    So it is a huge transformation and a pivot point for the 
industry, and it is going to start happening over the next five 
years. So it is putting incredible demands on spectrum.
    Ms. Bonamici. Anybody else care to opine about looking into 
the future; what we can expect?
    Dr. Subramanian. Yeah. You know, if I may add to what you 
have been telling and Ms. Brown has been telling, let us take 
every economic sector, every key economic sector which is going 
to define the economic growth of this Nation. Let us talk about 
the energy sector, advanced manufacturing systems and all 
systems. The whole energy grid for a significant time is going 
to be dependent on wireless.
    Ms. Bonamici. Right.
    Dr. Subramanian. Now, look at advanced transportation 
systems, electric charging, entertainment, safety--everything 
is going to become wireless. So now you can talk about advanced 
manufacturing systems and the Wall Street and the financial 
industry is going to be hit.
    Now, you are talking about every economic sector, then you 
see the whole dependence of the economy, a significant 
technology dependence I should say, on wireless technologies.
    Ms. Bonamici. Thank you very much, and I wanted to follow 
up on the last set of questions and ask about--I know, Dr. 
Subramanian, that you mentioned the need, the demand is 
increasing not just here but in the EU and Singapore, China, 
and that they are aggressively seeking some innovative 
solutions. And I wonder if you could describe how our efforts 
compare, as we are attempting to address this crunch, and can 
we learn any lessons? I know that Mr. Bennett, you talked about 
the investment in R&D, but how do we compare, and can we learn 
anything from the, you said innovative solutions that are being 
pursued in other areas?
    Dr. Subramanian. Okay. Now, let us talk about the European 
Union. Now, the European Union has created a large-scale test 
bed where all the countries and all the vendors can have a 
common place. Now, you think about so many of these vendors 
supporting the ecosystem, having a common place where they are 
able to work and develop new technologies.
    There are also efforts going on to measure the spectrum at 
different places and create a common database which can be used 
to deploy certain kind of architectures for spectrum sharing.
    Similar efforts are on in Singapore. Singapore is trying to 
aggregate all the needs of the neighboring countries as well as 
its own. Now, what happens is they get the patents. So the more 
and more patents go out to the world, American economy starts 
paying a premium on these technologies, and you don't want that 
to happen. So that is the critical issue we are in right now.
    Ms. Bonamici. Thank you. I am going to yield back my time. 
Thank you.
    Chairman Hall. Thank you. Thank you for yielding back.
    The Chair recognizes Mr. Hultgren from Illinois for five 
minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all. I 
apologize. I have a busy afternoon. I have several different 
committees meeting and then other things, so I apologize I 
haven't been able to be a part of all this discussion but 
definitely appreciate you being here. This is a very important 
topic that we need to be talking about.
    I just have a couple of questions.
    First of all, I would ask if any of you have some thoughts 
on this. I know in Dr. Olthoff's testimony you described some 
of the work that NIST is conducting to improve emergency 
responder communications such as wireless systems, metrology 
program to measure distortions in difficult radio environments. 
This technology certainly will be very beneficial to public 
safety community.
    I am curious as to whether you think this research would 
also be helpful in other commercial applications of wireless 
communication, and I just wondered if any of you have any 
thoughts about how this research could be used to help 
commercial communications.
    Mr. Bennett. If I could, there is a direct tie between any 
sort of test bed that we use to verify the validity or the 
robustness of an emergency communications system like that 
actually produces immediate benefits for the consumer, because 
we no longer really have--these technologies are no longer 
stove-piped the way they used to be.
    In one of the comments that was made in connection with the 
White House's inquiry into the Public Safety Network, one of 
the public, one of the police chiefs I believe it was, made the 
comment that the average 16-year-old in the United States has 
better communications capability than the average policeman 
does. Well, there is a reason for that. The 16-year-old is 
using a system that was--that is the product of hundreds of 
billions of dollars of investment in basic research and R&D and 
chip development, as well as testing, whereas the average 
policeman today is using a system that was custom built for a 
relatively small market, you know, some time ago when the 
technology was just not as well developed as it is.
    So there is a great benefit to standardization, which is 
why, you know, the standards bodies that developed, you know, 
the Wi-Fi standards and the 4G and LTE standards, that is where 
all the research comes together. So people all over the world 
are doing research. Everyone wants to be the next Qualcomm that 
has the patents on CDMA that have, you know, proved to be so 
valuable because they are universally deployed, and the test 
beds are part of the process to sort through the competing 
proposals and decide what the standard is going to be. I mean, 
we can't, we are not really in a position in the United States 
in commercial or government sector or anywhere else to really 
make our own decisions about technology.
    Now, we pretty much have to go with the standards, because 
the arguments are so compelling.
    Dr. Olthoff. The requirements for the Public Safety Network 
are so demanding, the ability to operate under the most severe 
environmental conditions, under conditions where the data load 
will be intense under really serious circumstances, the ability 
to be ultra-secure, the ability for literally thousands and 
tens of thousands of disparate organizations to utilize the 
same network, all of those are pushing us towards newer 
technologies and newer solutions, and all of those will 
inevitably lead to solutions perhaps unforeseen at this time 
that will be useful to the commercial sector.
    Mr. Hultgren. Mr. Bennett, if I can ask a quick question 
and get your thoughts with the expected massive increase in 
internet data transmission in the near future and also 
anticipated reliance on wireless technology, is it possible 
that broadband spectrum availability will constrain other 
computing technologies such as cloud computing, and what 
potential solutions are there to this problem?
    Mr. Bennett. Well, we need to solve the spectrum crunch, 
you know, once and for all, and I think the way that we do that 
is by--and I alluded to this in my oral testimony. It is also 
in my written statement. Development of technologies like 
spatial division, multiple access, and multiuser MIMO that 
allow multiple people multiple data strains to actually occupy 
the same frequency at the same time, and that pretty well, when 
those are fully developed, you know, there is no more spectrum 
crunch.
    But it certainly is the case that the--by constraining the 
bandwidth that we have available for emerging applications like 
augmented mobile reality, which is directly related to the 
cloud, then the cloud can't really develop until the users of 
augmented mobile reality can exchange video streams with the 
cloud processing systems, and so, yeah, it is a crucial 
building block. I mean, application developers would use 
whatever spectrum is available, whatever bandwidth is available 
to them, they will use it. And if it is only enough for narrow 
band, fairly unimaginative applications, then that is what we 
will have.
    Mr. Hultgren. My time is up, but real quickly, just 
following up, Mr. Bennett, when do you think some of that might 
happen, some of that next advancement of technology? Any guess? 
I mean, is that in the next few years, is that the next 
decades?
    Mr. Bennett. I think we are going to start to see really 
dramatic changes probably within the next 10 years. It could be 
sooner than that. Network affects, it is really always 
difficult to take a revolutionary new technology and introduce 
it into the marketplace because there is so much momentum 
around the existing systems, but I would say as soon as five 
years and as--at worst case probably 20 to 30.
    Mr. Hultgren. Thank you all very much. I yield back.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes Ms. Edwards for whatever time she 
wants to consume.
    Ms. Edwards. Thank you, Mr. Chairman. He promised me five 
years, so you all will be here for awhile.
    Just one question here, and it goes to a reference in Dr. 
Subramanian's testimony where he mentioned that the industry's 
focus on supporting the deployment of 4G technology and isn't 
ready to invest in spectrum sharing research and development, 
and I am curious as to what can be done to encourage more 
active involvement by industry in this area.
    And it goes to another point that was made. I think Mr. 
Guttman, in your testimony, where you talked about focusing on 
repurposing and reallocation as opposed to other newer 
technologies around spectrum sharing, and I am just trying to 
get a handle on this question of what it means for the 
consumer, because if we reallocate and use as much spectrum as 
there is available and it is a finite resource, then at some 
point or other the consumer is like paying through the nose for 
data.
    And that may not happen right now, but it is increasingly, 
and so I am trying to figure out what the incentive is for the 
industry to make investments in this existing technology, 
because it isn't just about the consumer demand, because I 
could imagine an environment where when none of the big 
carriers moves to invest, where you would just say, well, you 
know, consumer demand, they pay more for what is available. 
What is then the incentive for the industry?
    Mr. Guttman-McCabe. Sure.
    Ms. Edwards. And so, Mr. Guttman, can you----
    Mr. Guttman-McCabe. Yeah.
    Ms. Edwards [continuing]. Help me with that?
    Mr. Guttman-McCabe. Yeah. I think the clearest way to 
address this is almost to bifurcate the effort, to look at what 
can be done in the short term to address this conflict between 
supply and demand, and I think you would only need to look at 
the back row behind me. I am not sure they are still back 
there, but all those young folks when they first came in, I 
came in front of--right behind many of them through security. 
Every single one of them had at least one device.
    And so what we are looking at, and I think Ms. Brown 
referenced this is what is in the pipeline in terms of spectrum 
resources, and there really isn't anything, and we are unique 
in the develop world in that sense. So we have got to focus on 
getting something in the pipeline now that is usable now.
    And so when I talk about sort of real-time sharing or 
opportunistic use, I think everyone agrees that that is the 
long-term solution except for every panel I have been on in 
front of Congress, at the President's PCAs, everyone has said 
there is not a solution that is available or scalable yet.
    And so how do we get to that, how do we bridge that 
timeframe between now and Mr. Bennett's five, 10, 30 years, and 
from our perspective it is let us focus again in the short 
term, having our government, you know, officials focus on 
repurposing the spectrum that is available. We looked at the 
broadcasters for every 100 megahertz that they use, 190 are not 
being used. So how do we drive efficiencies from that? How do 
we drive efficiencies from some of the government uses? There 
are microwave uses in bands that just do not need to be there.
    So how can we drive out some of those efficiencies, bring 
it to market. At the same time you heard Ms. Brown say that 
they have every incentive to move to solutions that drive 
efficiency. When we were in Dallas last week, one of our 
largest manufacturers who is one of the largest in the world, 
said every single wireless solution that they have employed 
around the world was developed in the United States.
    So I hope that the takeaway from here is not that the 
United States is not doing its part. That is why we are seeing 
multinational companies move their R&D facilities here into the 
United States. But there does need to be some focus on sort of 
some of the longer-term solutions. My point is we can't say 
that that is the gold standard now when it currently doesn't 
exist. It is a wonderful, absolutely necessary aspiration to 
get to it, and it will solve a tremendous amount of the 
problems, but once it is available, and there are people 
spending great deals of money on that.
    Ms. Edwards. So, thank you, and because my time is running 
out, so I just want to be clear. From your industry perspective 
reallocate, repurpose for the short term, invest in the R&D and 
the technology and the development for the long term and so, 
Dr.--Mr. Bennett, Dr. Olthoff, are we making enough of an 
investment in basic research from the Federal Government to 
support the long-term activities that have to take place in 
R&D?
    Mr. Bennett. Probably not.
    Ms. Edwards. Just say it for the microphone. It is okay.
    Dr. Olthoff. Certainly NIST has sufficient resources to be 
addressing the problems that we are working on right now, and 
the proposed initiative in the President's '13, budget will go 
a long way towards helping us address some of the new 
measurement needs that are being--all these new technologies we 
will be needing.
    Ms. Edwards. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Hall. The gentlelady yields back.
    Mr. Lipinski, the gentleman from Illinois, for five 
minutes.
    Mr. Lipinski. Thank you very much, Mr. Chairman. A quick 
question. The question that people I go home, people will want 
to know the answer to, is there going to be a point, maybe you 
feel like it is happening now, but is there going to be a point 
where the spectrum crunch causes a noticeable drop off in 
service? That is what--I talk about this at home, and people 
just want to know, okay, so what is it going to do to me? What 
am I going to--what impact am I going to feel?
    So I just wanted to hear what any of you want to say about 
that. So, okay, let us start on the right side and go across.
    Dr. Subramanian. Yeah. I mentioned this some time back 
here. If you look at the major carriers, they have already 
removed the unlimited data plans. So at minimum now you have to 
pay $50. I used to pay for my Blackberry $29.99 for unlimited 
data plan from Verizon, and now if anyone wants to get a new 
data plan, you just get 5 gigabytes for $50, and this is going 
to be increasing more and more.
    Now, added to this, there is going to be quality of service 
issues, there is going to be dropped call issues, and things 
are going to go slow, and if this continues in 4 or five years, 
even to look at Facebook is going to be very difficult.
    Mr. Lipinski. And that first part, is that a spectrum 
issue, or is that--well, if I had one of these companies, I 
could raise my prices, I would raise my prices. Is it that, or 
is it the spectrum issue?
    Dr. Subramanian. One of the major carriers has said it is a 
spectrum issue, and the government needs to act.
    Ms. Brown. Yes. It is a spectrum issue. All of the major 
carriers have discussed this in various respects, and the thing 
to understand about it is it is going to hit, the impact to 
consumers is going to hit, geographically it is going to be 
different and by carrier it is going to be different, depending 
on how much spectrum they have in the cupboard that they can 
bring out to address it.
    So the major metropolitan areas, New York City, even San 
Francisco when I go back to Cisco's corporate headquarters in 
San Jose, when you are driving down the 101 to San Jose, it is 
very hard to get a connection that actually doesn't drop or 
have some issue with trying to get connectivity.
    So we are already starting, sort of the early hints of it 
are here. The Federal Communications Commission said they think 
that we are going to start seeing that more in a broad way next 
year if additional spectrum isn't found.
    Mr. Lipinski. So is this something that is going to happen 
sort of slowly and just gets more and more aggravating and so--
and that is something that is going to, unfortunately----
    Ms. Brown. Yeah.
    Mr. Lipinski [continuing]. A lot of times up here on 
Capitol Hill we don't do anything until there is a crisis or a 
big sharp drop off somehow but----
    Ms. Brown. Yes.
    Mr. Guttman-McCabe. Congressman, we coined the term 
``looming spectrum crisis,'' in part to get the attention of 
you as leaders because----
    Mr. Lipinski. Because you know that is the only way.
    Mr. Guttman-McCabe. Exactly. I didn't say that, but that 
was--we tried to find a way to identify in a very succinct, 
very easy to understand way, and I think, again, I have spent 
an inordinate amount of time defending whether, in fact, there 
is a looming spectrum crunch or crisis, and I keep saying, you 
know, if this is a conspiracy, it is a global conspiracy 
because every country is addressing this issue, and when we 
talk about the area where we are falling behind, that is one 
area where we are falling behind. You look at the countries 
that I listed earlier, the closest one has a third of our 
population, you know, Japan. I mean, you look at Germany, the 
UK, Italy, France, South Korea. They have all identified 
hundreds and hundreds of megahertz. Some of them have brought 
it to market, and they have done it because they don't want to 
see that impact, they don't want to see carriers taking steps 
to try to drive down usage of their product, and they do want 
to see this explosion in verticals, whether it is M-Health or 
smart education or intelligent transportation.
    I mean, we are seeing sort of the movement of wireless into 
so many sectors, and it is fantastic, and yet at the same time, 
it could be concerning if we don't begin to address both short 
and long-term this concern about the lack of spectrum in the 
pipeline.
    Mr. Bennett. The spectrum crunch hit San Francisco in 2007, 
when the iPhone took off and every hipster in town had to have 
one, and San Francisco has its unique policy where they really 
don't like to issue zoning permits for new towers, and so 
without spectrum, you know, it is, yeah, there is two 
solutions. Right. There is either more spectrum or more towers. 
And if you can't get the towers and you don't have the 
spectrum, then what happens is, you know, the hipsters can't 
have their iPhones. I mean, now that they----
    Mr. Lipinski. Now you have hit the key here.
    Mr. Bennett. But now they have got Sprint so maybe, you 
know, maybe with Sprint and Verizon having the iPhone, you 
know, the people of San Francisco, some of them are hipsters 
but not all, will, you know, will be able to enjoy that.
    Dr. Subramanian. You know, personally, I don't think I 
would be very upset if I could not see the Facebook on my 
smartphone--my 11-year-old daughter might be--but I think the 
key point is this Nation has progressed. The economy has grown 
through innovation in various sectors and there is a 
fundamental dependency of different sectors of the economy. For 
example, the Smart Grid, the advanced transportation systems, 
the medical systems, advanced manufacturing systems. They are 
all extremely different, dependent on wireless technologies, 
which means that job creation capability of this Nation is 
dependent on what is the spectrum usage and how effectively we 
can use it. So that is the fundamental problem.
    Mr. Lipinski. Well, I am glad you brought it back to that 
because that--when we get down to it, we are talking about the 
convenience, and good, you know, devices are important, but the 
bottom line, the final bottom line is this is about, you know, 
economic growth.
    So thank you very much, and I yield back.
    Chairman Hall. The gentleman yields back.
    I have just a brief something I would like to put in the 
record. The spectrum policy has been discussed at length this 
Congress, and there has been a dramatic increase in demand on 
spectrum in recent years, and to meet this demand there are 
those who argue the need for the new technologies and more 
efficient use of spectrum.
    We also hear the argument from others that unleashing new 
spectrum through spectrum auctions is the solution to so-
called, ``spectrum crunch.''
    An article appeared in the New York Times today and which 
highlighted these various opinions and detailed the issues 
surrounding spectrum use and the wireless economy.
    I would like to ask unanimous consent that this article be 
put in, entered into the record, and without objection, it is 
so ordered.
    [The information may be found in Appendix 2.]
    Chairman Hall. And I will say now to you, nobody else here, 
don't judge our interest and our appreciation of your 
appearance here today by empty chairs, because all these people 
have at least three places they ought to be right now, and we 
are thankful that they came and gave us as much time as they 
could, but we know you took time to prepare yourselves, and it 
takes time to give this testimony, and we are very grateful to 
you because you are helping us solve something that is almost 
insolvable.
    I thank you for your valuable testimony and thank the 
Members for their questions, and the Members of the Committee 
might have some additional questions for you. We will ask you 
all to respond to those if you will, and the record will remain 
open for two weeks for additional comments and statements from 
Members.
    The witnesses are excused. Thank all of you for coming. 
This hearing is now adjourned.
    [Whereupon, at 3:32 p.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
                    Responses from Dr. James Olthoff


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    Response from Ms. Mary L. Brown




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Appendix 2

                              ----------                              


                   Additional Material for the Record



 Carriers Warn of Crisis in Mobile Spectrum: Reprint from the New York 
                                 Times


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
